Tl

No.

iGrit

°SS4g
OR

IN THE
SUPREME COURT OF THE UNITED STATES

I

AUGUST TERM 2021

filed
jjPREEM<ilrni»jfL^RK
U.S.

CAMILO JOSE ARANGO LATORRE
Petitioner
V.

UNITED STATE OF AMERICA
Respondent.

PETITIONER FOR A WRIT OF CERTIORARI
TO THE UNITED STATE COURT OF APPEALS
FOR THE NINTH CIRCUIT

CAMILO JOSE ARANGO LATORRE,
With great respect and a pauperis way.
Address: Complejo Correccional de Bayamon- Anexo 292
50 carretera Unit # 700- 607073
Industrial Luchetti
Bayamon, Puerto Rico 00961-7403
Please send a copy of all correspondence to my mother address, which is, Mayra L. Latorre
Berrios, 31A Marian Road, Framingham, MA 01702. Reason why is because of the Covid 19
correspondence at this correctional facility are delayed.

SUBMITTE: July 19, 2021

QUESTION PRESENTED
T. Certiorari requesting revision of the Honorable Supreme Court of Puerto Rico of
January 12, 2021. Declaring there has been no such motion in retrial request for the
nullity of the sentence and guilty verdict through most open votes, violation of the sixth
amendment to a fair and impartial trial, the precept of reasonable doubt and in crass
violation of due process of Law.
The non- retroactive application of the constitutional rule of Ramos v.
Louisiana, in this case being this substantive and/or discretionary for state, is a
discriminatory act prohibited by the constitutional clause of the same Protection of Law.
2.Conviction supported by perjured testimony. The main Prosecution witness, Loraine
Rivera Vazquez, provided two diametrically opposed affidavits. In the first sworn statement
of Loraine Rivera Vazquez, she accuses Felipe Fontanes Burgos as the author of the events.
That first affidavit was corroborated with the rest of the evidence. Said first sworn statemen
was admitted in the proceedings against Camilo Jose Arango Latorre, here the petitioner. So
the jury did not have the opportunity to examine it in depth.

TABLE OF CONTENTS

Table of Authorities

Jurisdiction

Opinion Below

Statement of the case

Reason for Granting the Petition

Appeal

Certify the Notification

Annexes
Annexed A- Certiorari presented to the Supreme Court of Puerto Rico.
Annexed B- Resolution of the Supreme Court of Puerto Rico on Petition in the
Certiorari.
Annexed C- Opinion of Judge Mendez Miro of the Puerto Rico Appellate Court on
Certiorari presented to said Court.

TABLE OF AUTHORITIES
~
Sixth Amendment to the Federal Constitution of the United State of America.
The clause of the Protection and Guarantee of the Equal Protection of Laws both at the state
level, and as federal fundamental right, Constitution of the United State of America.
Fundamental rights that were pointed out and affected in the case as was the Due Process of
Law, the Equal Protection of Laws.

Constitutional right of the accused and of the people to have a sixth amendment
to the constitution of the United State of America.
The fourteenth amendment to the Constitution of the United State of America.
Right to a fair trial, section 111 of Article 11, constitution of Puerto Rico.
Section 1746 of title 28 of the penal code of the United States, voluntarily
subscribe as true any material which in not believe to be legitimate, is guilty of perjury. This
section applies to any statement or subscript within or outside of the United States.

Pueblo vs Mendoza, 149 DPR 630. 637 119991
Ramos v. Louisiana. 590-120201
Pueblo Esquilin Diaz, 146 DPR 808- 1998
Pueblo vs Lopez Guzman. 131 DPR 867- 867- 1996
Pueblo vs Ashley Torres Feliciano. 2018. TSPR 159
Pueblo vs Melendez Cartagena. 106 DPR 338. 1977
Payton v. New York. 445 US 814. ('1980')
Stovall v, Denno. 388, 293 (19671

JURISDICTION

The jurisdiction of the Supreme Court of Puerto Rico was initially invoked,
It has jurisdiction to resolve by the authority conferred on it by subsection A, of section 3.002 of
Puerto Rico Judiciary Act of 2003, approved on 22 August 2003, 4LPRA 22., subsection (d), by
the provision of the Regulation of the Supreme Court of Puerto Rico, Rule 20, subsection A,
number 1, and by the provision of Rule 217, Rules of Criminal Procedure in force, as amended,
34 L.P.R.A, 11, R 217.

This Honorable Supreme Court of the United States, in Washington, has jurisdiction to
resolve the writ of certiorari. The Federal Supreme Court reiterated on June 9, 2016 that the
sovereignty of Puerto Rico resides in Washington and that the last source of power over the
island is the United States Congress, vs cont. art 11128 U.S C- 1331(2006).

OPINION BELOW

Sixth Amendment to the Federal Constitution of the United State of America. The
clause of the protection and guarantee of the Equal Protection of Laws both at the state level, as a
Fundamental federal right, constitution of the United States of America. Fundamental rights that
were indicated and affected in this case, such as the Law Process, the Equal Protection of the
Laws.

Pueblo vs Mendoza, 149 DPR 630, 637 (1999)
Payton v. Nueva York, 445 vs 814, (1980)
Linkletter v. Walker, 381 vs 618, (1965)
Grifith contra Kentucky, 479 vs 314
Ramos contra Luisiana, 590 — (2020)
Pueblo contra Sanchez Valle..., 192 DPR 594 (2015)

STATEMENT OF THE CASE
1. The appellant was unjustly tried and wrongly sentenced for a life sentence during
2009, this for a crime of murder of his then esteemed neighbor, which he never
committed.
2. As pertinent, he was found guilty for, the crime of murder in the first degree and for
the crime of carrying a firearm by nine votes, before three (3) jurors who found him at
this petitioner not guilty.
3. On January 12, 2021, we submitted to the judiciary a document entitle motion on
nullity requesting the nullity of the verdict and request for a new trial (R192. 1 of
RPC). Which was denied.
4. Our brief is substantially based on the case law recently issued and/or resolved on
April 20, 2020 by the highest Federal Judicial forum, in Ramos vs. Louisiana. US.
5. The aforementioned Jurisprudence of Ramos v. Louisiana, supra, resolves that a
defendant for the Federal Constitution to have a fair trial by jury, and for a legal
conviction for such a crime to fall, unanimity is always required in the decision of the
(12) twelve juries.
6. This jurisprudence on the unanimity in the verdict, directly retroactively protects the
petitioner here Camilo Jose Arango Latorre. It is then also protected and favored by the
substantial constitutional mandate of the Equal Protection of the Law, shapirov.
Thomson, 394, us. 618, 627, 634, 638, San Antonio Indep. School Dist v. Rodriguez,
411 us. 1(1973).
7. Before the Superior Court of Arecibo, Puerto Rico, among other, some testimonies that
were paraded.
8. On February 15, 2009, Mr. Camilo Jose Arango Latorre left his residence in Orocovis,
Puerto Rico, in the new car, owned by his mother, accompanied then by an alleged
friend of all, the young Loraine Rivera Vazquez, 19 years old. Very good friend of
then accused of the murder in controversy Felipe Fontanes Burgos, aka, Kay. An
alleged habitual offender resident of Orocovis. Allegedly, she suddenly asked insisted
that Camilo pick up his friends from Felipe Fontanes (Kay) when they started the car
for some photos.
9. As a highly procedurally irregular matter, in the middle of the trial, or the statutory
preliminary hearing, the young woman and/or minor, Loraine Rivera, as a witness for
the state of the Arecibo prosecutor's office in open court, provided two different sworn
statements between yes... Therefore by definition she became a perjury witness.
10. In her first sworn statement, Loraine Rivera declared in open court that it was Felipe
Fontanes, her friend, who killed Jose Santos Robles with a firearm.
11. From being a witness for the state, Camilo Jose Arango Latorre suddenly went from
now here, unjustly to being accused of a crime he did not commit. From being a
prosecution witness against, Felipe Fontanes, suddenly the same young Loraine, the
minor, became a witness, not against Kay (Felipe Fontanes Burgos), the now convicted
but now against the than prosecution witness from the prosecution itself Camilo, a
young student, the eternal fighter here, petitioner Camilo Jose Arango Latorre.

12. Camilo J. Arango Latorre, an admirable young college student with honors, who has
-----heen^leadmg-and-erying-out-for-justiee-for-years'-and-years-------------------------------13. In the merits trial against Camilo J, Arango Latorre, the member of the jury, were not
presented with the first sworn statement by Loraine Rivera, which blamed Felipe
Fontanes despite the fact, that he was admitted in a previous process.
14. The jury learned of the first sworn statement of Loraine Rivera Vazquez due to the
interrogation of the defense of Camilo J. Arango that he made to Loraine Rivera. This
resulted in a 9+3 verdict filled with reasonable doubt. Therefore, this type of verdict
9+3 is contrary to the principles ofjustice, as dictate by the jurisprudential rule in
Ramos v. Louisiana.
15. Furthermore, the questioning of Loraine Rivera defense of Camilo J. Arango was
emphasized in the testimony accusing Camilo J. Arango. The defense did not have the
full opportunity to question Loraine Rivera about her first sworn statement, because
said evidence was not admitted in this second process. Similarly, the jury never had the
opportunity to examine in depth the first affidavit of Loraine Rivera, nor did the
member of the jury listen to the narration of the facts of the first affidavit of Loraine
Rivera Vazquez.
16. The only verbal statement of facts that the jury heard and settle, was the second sworn
statement by Loraine Rivera, which blamed Camilo J. Arango Latorre here as the
petitioner.
17. If the prosecution had not concealed said testimonial and documentary evidence, what
would have been the verdict of the jury? Most likely, a unanimous verdict had been
given in favor a Camilo J. Arango Latorre. Even so a 9 to 3 verdict was obtained which
is contrary to the principles of justice.
18. If the first sworn statement of Loraine Rivera Vazquez had been presented so that the
jury could compare said testimonial evidence with the rest of the evidence, the verdict
would probably have been unanimous in favor of the petitioner here Camilo Jose
Arango Latorre.

REASONS FOR GRANTING THE PETITION
1. Conviction supported by perjured testimony. The lead witness, Loraine Rivera
Vazquez, gave two separate affidavits.
2. Due process of law was violated by hiding documentary evidence, which was
presented by the main prosecution witness, Loraine Rivera Vazquez. In her first
sworn statement, Loraine Rivera stated that Felipe Fontanes Burgos, her friend,
was the one who Killed Jose Santos Robles with a firearm.
3. In the merits trial against Camilo Jose Arango Latorre the member of the jury,
were not presented with a first sworn statement by Loraine Rivera, who blamed
Felipe Fontanes Burgos despite the fact that she was admitted in a previous
process.
4. The jury learned of Loraine Rivera Vazquez first due to questioning of the
defense of Camilo Jose Arango Latorre, which he made to Loraine Rivera. This
resulted in a 9-3 verdict filled with reasonable doubts. Therefore, this type of
verdict 9-3 is contrary to the principles of justice, as dictated by the
jurisprudential rule in Ramos v. Louisiana.
5. In addition, the interrogation that the defense of Camilo J. Arango Latorre
carried out to Loraine Rivera Vazquez was emphasized in the testimony that
accuses Camilo J. Arango. The defense did not have the full opportunity to
question Loraine about her first sworn statement (where she points to Felipe
Fontanes Burgos as the perpetrator of the crime), because said evidence was not
admitted in the second process. Likewise, the jury never had the opportunity to
delve into Loraine's first affidavit, nor did jurors listen to the narration of
Loraine's first affidavit. This type of "limited admissibility" of evidence put
Camilo J. Arango defense at a disadvantage and favored the state.
6. Exculpatory evidence was concealed.
7. Puerto Rico is very particular case in terms of the unanimous verdict because it
was a right already acquired from 1900 to 1948 that was eradicated. In 1948, the
majority verdict law was enacted in Puerto Rico against what was established
and established by the constitution of the United State of America, since the
Puerto Rican constitution had not been established at that time and Puerto Rico
was governed by the constitution from United State. This makes Puerto Rico
very particular in terms of the majority verdict compared to the Louisiana case
and the Vannoy case. In 1952 when the constitution of Puerto Rico was
established. Therefore in 1948 the standard of Law was lowered.

APPEAL

For all of which,
Respectfully, based on the previous approaches, and on what
Substantial Justice legally means, we ask the Honorable Court that prior to the
rigorous procedure that corresponds in Law., declare our Petition for Certiorari
with Place, and that in accordance with the mandate interpreted under the Sixth
and Fourteenth Amendment of the Federal Constitution, to the safeguards of the
Constitution of the United States of America, Equal Protection of Laws, we beg
that it be ordered then, the Appealed Resolution is annulled, the Sentence and
Verdict are annulled and consequently, the immediate release of the Complainant
is ordered and that he be tried again before a new Impartial Jury...

I Certify the Notification
I certify: That as of today a true and exact copy of this Petition for Certiorari
has been sent by certified mail to the Honorable Supreme Court of Puerto Rico.

Respectfully Submitted,
In Bayamon, Puerto Rico, July i0!,

•

■¥r

Camilo Jose Arango Latorre
Complejo Correccional Anexo 292 Bayamon celda 13
50 carretera unit # 700-607073
Industrial Luchetti,
Bayamon, Puerto Rico 00961-7403

